MARCH 27, 2013
  AUDIT REPORT




                                                      OFFICE OF AUDITS




 REVIEW OF NASA’S EXPLOSIVES SAFETY PROGRAM




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-13-013 (ASSIGNMENT NO. A-12-017-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

CFR            Code of Federal Regulations
DDESB          Department of Defense Explosive Safety Board
DOT            Department of Transportation
ESO            Explosive Safety Officer
FBI            Federal Bureau of Investigation
GAO            Government Accountability Office
IFO            Institutional/Facility/Operational
NASA-STD       NASA Standard
NPR            NASA Procedural Requirements
OSHA           Occupational Safety and Health Administration
OIG            Office of Inspector General
TNT            Trinitrotoluene
UDMH           Dimethylhydrazine
USDA           U.S. Department of Agriculture


                                                               REPORT NO. IG-13-013
MARCH 27, 2013




                                                                                               OVERVIEW

              REVIEW OF NASA’S EXPLOSIVES SAFETY PROGRAM

                                                                                                 The Issue

  NASA Centers and Facilities routinely procure, store, transport, and handle explosive
  materials, pyrotechnics, and propellants (known as energetic materials) in support of
  Agency programs and projects. Energetic materials consist of any chemical compound or
  mixture that detonates or deflagrates when subjected to heat, impact, friction, or electrical
  initiation (see Figure 1).1 Improperly transporting, storing, or handling these extremely
  hazardous materials can have catastrophic consequences, including loss of life, serious
  injury, damage to facilities and equipment, damage to the environment, and loss of
  mission capabilities.

           Figure 1. Detonation testing of explosive materials at White Sands Test Facility




           Source: NASA


  For example, in July 2007 Scaled Composites, LLC, the prime contractor for Virgin
  Galactic’s SpaceShipTwo, experienced an explosive mishap that killed three employees,
  seriously injured three others, and delayed development of a new hybrid rocket engine.
  The exact cause of the accident was never determined; however, Scaled Composites
  1
      Detonation is a violent chemical reaction resulting in heat and a wave of pressure through the reacted
      material at supersonic speeds. Deflagration is a violent chemical reaction resulting in a wall of flame that
      travels at subsonic speeds away from its source of ignition.



REPORT NO. IG-13-013
                                                                                                   OVERVIEW



     attributes the explosion to mishandling of nitrous oxide, an oxidizer used in rocket
     motors.2

     NASA has well-established and detailed safety standards to protect its personnel,
     facilities, and the general public.3 In addition, the Occupational Safety and Health
     Administration maintains standards relating to energetic and other hazardous materials
     and mandates that all employers develop the necessary expertise to implement and
     maintain an effective safety management program that can prevent or minimize the
     catastrophic effects of a mishap.4 Explosive Safety Officers (ESOs) at each NASA
     Center ensure that their Center Explosives, Propellants, and Pyrotechnic Safety Program
     (Explosives Safety Program) meet all applicable regulations and protect people and
     property from mishaps.

     We initiated this audit to examine whether NASA’s internal controls for the storage,
     handling, accounting, and transportation of energetic materials were adequate to protect
     Agency personnel, facilities, and the general public. The primary locations for this audit
     were Glenn Research Center (Glenn), Stennis Space Center (Stennis), Wallops Flight
     Facility (Wallops), and White Sands Test Facility (White Sands). Details of our scope
     and methodology can be found in Appendix A.

     Results

     We identified 155 separate instances of improper storage, handling, or other procedural
     violations involving energetic materials, some of which could have resulted in significant
     damage to facilities, injury, or death (see Appendix B). For example, we found
     incompatible explosive materials stored in the same location, unsafe distances between
     occupied buildings and storage facilities containing energetic materials, inaccurate or
     incomplete inventories of energetic materials, and improper inspection procedures for
     vehicles used to transport these materials. In our judgment, a lack of oversight,
     resources, and training at both the local and Headquarters level are the primary factors
     contributing to the deficiencies we identified.

     To NASA’s credit, personnel at each site quickly addressed issues we uncovered that
     presented an immediate threat to personnel and facilities. In this report, we note issues
     and recommend additional actions to improve NASA’s Explosives Safety Program.




     2
         An oxidizer is a substance that produces oxygen to support combustion.
     3
         NASA Procedural Requirements (NPR) 8715.3C, ―NASA General Safety Program Requirements,‖
         March 12, 2008. NASA Standard 8719.12, ―Safety Standard for Explosives, Propellants, and
         Pyrotechnics,‖ January 29, 2010.
     4
         29 Code of Federal Regulations Part 1910.119, ―Process Safety Management of Highly Hazardous
         Chemicals.‖



ii                                                                                    REPORT NO. IG-13-013
OVERVIEW



The Safety of Personnel and Facilities are at Risk

  Improper Storage and Handling. At each site visited, we identified unnecessary risks
  to personnel and property caused by the improper storage and handling of energetic
  materials. For example:

            A facility at Stennis not originally designed to store energetic materials was used
             to both store explosives and conduct tests involving electro-explosive devices.5
             Although precautions to protect workers during testing were in place, they did not
             meet design requirements and were in direct violation of NASA safety standards,
             which require facilities to be specifically designed for concurrent operations
             involving energetic materials.

            Also at Stennis, we identified incompatible explosive materials stored in the same
             location. The ESO did not appropriately account for the combined effects of the
             materials, which resulted in the miscalculation of safe separation distances
             between the energetic materials and an adjoining building. According to our
             calculations, if the stored materials had detonated, more than 40 percent of the
             occupied building would have sustained structural damage and 15 percent of the
             personnel inside could have sustained fatal injuries.6

            At White Sands, we observed two shipping crates containing dextrinated lead
             azide that appeared to be decomposing and therefore had potentially become
             highly unstable.7 Had personnel attempted to transport or handle this shock
             sensitive material, it could have detonated, potentially resulting in loss of life,
             serious injury, or damage to equipment and facilities.

            Of all the sites we visited, Wallops had the largest quantity (approximately
             100,000 pounds) of high-order, mass detonating explosive materials.8 We
             observed hundreds of rockets containing potentially explosive propellant stacked
             in close proximity to each other in bunkers. NASA personnel we spoke with had
             never assessed the physical condition of these rockets, all of which were

  5
      An electro-explosive device is an explosive or pyrotechnic that initiates an explosive, burning, electrical,
      or mechanical chain of events and is activated by the application of electrical energy.
  6
      A subject matter expert from the Department of Defense Explosive Safety Board (DDESB) provided this
      assessment. The DDESB authors the Department of Defense Manual 6055.09-M Volume 1, ―DoD
      Ammunition and Explosives Safety Standards: General Explosives Safety Information and
      Requirements,‖ February 29, 2008; evaluates scientific data; reviews and approves explosives site plans;
      and inspects locations at which U.S. munitions are used and stored.
  7
      Dextrinated lead azide, an explosive material with strong fragmentation properties, is used by NASA in
      detonators and incorporated into spaceflight projects such as the Multi-Purpose Crew Vehicle. However,
      it is extremely sensitive to stray ignition sources (including static electricity) and becomes sensitive to
      vibration and mechanical shock if crystallized due to improper storage.
  8
      High-order mass detonating materials are those whose entire quantity can be expected to instantaneously
      detonate and produce a supersonic, over-pressurization shockwave. Trinitrotoluene (TNT) and explosives
      used in military weapons are examples of this type of material.



REPORT NO. IG-13-013                                                                                                 iii
                                                                                                          OVERVIEW



                manufactured between the late 1950s and early 1970s. The stacked placement,
                coupled with the unknown condition of the propellant, increased the probability of
                a catastrophic event because if a single rocket were to ignite or explode this could
                set off a chain-reaction of detonations.

               At Glenn, a storage magazine containing pyrotechnics used in support of aircraft
                flight operations was in poor condition and located too close to an adjoining
                parking lot.

     Improper Accounting and Transportation. We found that NASA’s ESOs were not
     appropriately accounting for energetic materials or maintaining inspection records for
     vehicles carrying such materials. Specifically, inventory records were incomplete, did
     not include the type, class, or net weight of energetic materials, and materials could not
     be accounted for or reconciled with inventory lists. For example, at Wallops we found
     that 27 individual explosive components and assemblies, ranging from small arms
     ammunition to rocket motors, could not be accurately reconciled with inventory records.
     In addition, although our inspections revealed that the majority of vehicles used to
     transport energetic materials appeared to be properly maintained, no inspection records
     were kept and safety checklists were not used.


Internal Control Failures Contribute to Safety Deficiencies

     Lack of Oversight. NASA policy requires annual inspections and assessments of all
     energetic materials and the facilities in which they are stored.9 However, we found a
     general lack of oversight that significantly reduces the effectiveness of NASA’s
     Explosives Safety Program and increases the likelihood of a catastrophic event. For
     example, we found that ESOs at the sites we visited did not conduct appropriate annual
     inspections of energetic materials at their Centers or Facilities.

     In addition, the ESOs at Stennis and Glenn did not provide adequate oversight of
     explosive materials owned and stored by tenants on NASA property.10 Although the
     tenants provided the ESOs with some information in accordance with lease agreements,
     the information was not sufficient to ensure that the tenants were properly storing
     energetic materials.11 For example, the information provided to the ESO at Glenn
     indicated that a tenant at Glenn’s Plum Brook Station may have stored incompatible
     explosive materials – such as mass detonating explosive materials with initiating devices
     – in the same location. However, the ESO did not take action to confirm the accuracy of
     the information or attempt to mitigate the potentially hazardous situation.

     9
         These inspections and assessments include the inspection of electrical grounding, random inventory
         accounting, hazard analyses, and condition evaluation of the energetic materials.
     10
          In this report, a tenant is a non-NASA organization that leases land or structures on NASA property.
     11
          NPR 8715.3C requires that the ESO review all Memorandums of Agreement associated with explosive,
          propellant, and pyrotechnic operations and ensure that tenants comply with NASA requirements.



iv                                                                                         REPORT NO. IG-13-013
OVERVIEW



  Furthermore, NASA Headquarters’ did not conduct required audits, provide guidance, or
  perform appropriate oversight of Center Explosives Safety Programs and operations.
  Specifically, the NASA Safety Center is required to conduct a particular safety audit
  every 3 years.12 NASA policy requires that this audit verify the implementation of
  Federal, state, and local safety and health regulations, as well as requirements contained
  in NASA policies and regulations. However, the Safety Center never conducted such an
  audit of the Explosives Safety Programs and Headquarters personnel had not conducted
  an audit or Explosives Safety Program review at the four sites we visited in more than
  10 years.13

  Lack of Dedicated Resources. Center and Facility ESOs did not have sufficient
  resources, including personnel, budget, and dedicated work-time, to carry out their
  assigned responsibilities. This affected their ability to conduct timely inspections and
  accurate inventories of stored materials.

  At each of the sites we visited, the ESO duty was ancillary or a part-time responsibility.
  This was especially apparent at Wallops where the Safety Office Chief, who is
  responsible for all safety operations at the Facility, did not have an assigned ESO, leaving
  him solely responsible for carrying out the functions of the Explosives Safety Program.
  However, the official said that the majority of his time was devoted to carrying out his
  primary responsibilities, and therefore was unable to conduct hazard analyses,
  inspections, and inventories of the vast amounts of energetic materials and storage
  facilities under his purview. In our judgment, a single individual does not have adequate
  time to address both Safety Chief and ESO responsibilities, particularly at a site like
  Wallops.

  In another example, the ESO assigned to White Sands is physically located at Johnson
  Space Center in Houston, Texas, and is responsible for five Explosives Safety Programs
  located in three different states. In addition to managing these geographically dispersed
  programs, this same individual was recently assigned responsibility for the Pressure
  Vessel and Systems Program at Johnson, another critical safety program.

  Lack of Training and Experience. At the sites we visited, the assigned ESO generally
  did not demonstrate the knowledge or have the appropriate experience or training
  required to make programmatic and technical decisions regarding the Explosives Safety
  Program. Specifically, one ESO had attended only a basic explosive safety course and
  had no other work experience to serve in this capacity and others lacked current
  education and training.


  12
       Per NPR 8705.6B, ―Safety and Mission Assurance (SMA) Audits, Reviews, and Assessments,‖ May 24,
       2011, the NASA Safety Center at Brook Park, Ohio, is responsible for managing audits and assessments,
       including the Institutional/Facility/Operational (IFO) Safety Audit, on behalf of the Agency’s Chief of
       Safety and Mission Assurance.
  13
       The four sites were Glenn (which includes both Lewis Field and Plum Brook Station), Stennis, Wallops
       (which includes both the Main Base and Wallops Island), and White Sands.



REPORT NO. IG-13-013                                                                                             v
                                                                                       OVERVIEW



     We also found inconsistencies in the training records of personnel who are responsible
     for handling energetic materials. Specifically, except for Wallops, training
     documentation was incomplete at the sites we visited. As a result, we are unable to
     confirm whether employees and contractors who handle energetic materials on NASA
     property have been adequately trained.

                                                                  Management Action

     We acknowledge the swift actions taken in response to the immediate hazards identified
     at the Centers and Facilities we visited. To further improve NASA’s Explosives Safety
     Program, we recommended that NASA’s Chief of Safety and Mission Assurance initiate
     a review of management, storage, and handling procedures at all Centers and Facilities to
     identify deficiencies, take corrective actions, and share best practices. In addition, we
     recommended that the Chief of Safety and Mission Assurance immediately require all
     ESOs to conduct an inventory of energetic materials and initiate an investigation of any
     missing materials. We also recommended that the Chief of Safety and Mission
     Assurance:

           ensure that tenants and contractors comply with NASA requirements pertaining to
            energetic materials;

           develop and require that an inspection checklist be used and retained for vehicles
            used to transport energetic materials;

           review and assign oversight responsibility of the Agency’s Explosives Safety
            Programs to Headquarters personnel;

           review personnel and fiscal resource allocations for the Agency’s Explosives
            Safety Programs; and

           review and correct deficiencies regarding the qualifications and training of
            assigned ESOs and other personnel who work in the Agency’s Explosives Safety
            Programs.

     In response to a draft of this report, the Chief of Safety and Mission Assurance concurred
     or partially concurred with our recommendations and proposed corrective actions to
     improve NASA’s Explosives Safety Program. We consider the Chief’s comments
     responsive and will close the recommendations upon verification that the planned actions
     are complete. Management’s response is reprinted in Appendix F.




vi                                                                         REPORT NO. IG-13-013
MARCH 27, 2013




                                                        CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 6

  RESULTS
      NASA’s Explosives Safety Program Exposes Personnel and
        Property to Unnecessary Risk _________________________ 7

  APPENDIX A
      Scope and Methodology _______________________________ 23
      Review of Internal Controls ____________________________ 24
      Prior Coverage ______________________________________ 25

  APPENDIX B
      Summary of Discrepancies ____________________________ 26

  APPENDIX C
      Explosives, Propellants, and Pyrotechnics Hazard
        Classification System ______________________________ 29

  APPENDIX D
      Explosives Storage Requirements _______________________ 31

  APPENDIX E
      Vehicle Inspection Checklist ____________________________ 34

  APPENDIX F
      Management Comments ______________________________ 37

  APPENDIX G
      Report Distribution ___________________________________ 40



REPORT NO. IG-13-013
MARCH 27, 2013




                                                                            INTRODUCTION


Background

  The dangers of potentially hazardous material force us to realize things that have never
                             happened before happen all the time.
                                                    -NASA Safety Center14

  Energetic materials consist of any chemical compound or mixture that detonates or
  deflagrates when subjected to heat, impact, friction, or electrical initiation. Because
  energetic materials play an important role in many NASA programs, Agency personnel
  routinely store, transport, and handle these materials. Failure to follow proper safety
  procedures when dealing with energetic materials can have catastrophic consequences,
  including loss of life; serious injury; damage to facilities, equipment, and the
  environment; and loss of mission capabilities. The following examples illustrate the
  inherent dangers of storing and handling energetic materials.

           In May 1988, sparks from a repair crew’s welding torch set ablaze a fiberglass
            structure at a Pacific Engineering Production Company plant in Henderson,
            Nevada. The flames engulfed a massive stock of ammonium perchlorate, an
            oxidizer used in solid fuel rocket boosters, creating the largest accidental
            domestic, non-nuclear explosion in recorded history. The explosion killed
            2 employees, injured approximately 372 others, and affected structures within a
            10-mile radius. Damages were estimated at $100 million (see Figure 2).




  14
       NASA Safety Center, ―From Rockets to Ruins: The PEPCON Ammonium Perchlorate Plant Explosion,‖
       November 4, 2012. http://nsc.nasa.gov/SFCS/ (accessed March 26, 2013).



REPORT NO. IG-13-013                                                                                   1
                                                                                               INTRODUCTION



         Figure 2. Pacific Engineering Production Company explosion and resultant damage




         Source: NASA

              In August 2005, a tractor-trailer rollover 60 miles southeast of Salt Lake City,
               Utah, set off 35,500 pounds of high explosives, blasting a 30-foot-deep crater in
               the road and sending at least 20 people to the hospital. The force of the blast
               vaporized the truck, tore chunks of rock out of the canyon wall, and moved a
               nearby Union Pacific rail line 50 feet.

              In July 2007, Scaled Composites, the prime contractor for Virgin Galactic’s
               SpaceShipTwo, experienced an explosive mishap that killed three employees,
               seriously injured three others, and delayed development of a new hybrid rocket
               engine.15 According to Scaled Composites, the explosion occurred due to
               mishandling of nitrous oxide, an oxidizer used in its rocket motors.

              In January 2010, a graduate student at Texas Tech University lost three fingers
               and suffered other injuries to his hands and face when an energetic chemical
               (nickel hydrazine perchlorate) detonated in a campus laboratory. An investigation
               by the Chemical Safety Board found that systemic deficiencies in the University’s
               policies contributed to the incident, including the lack of risk assessment,
               oversight and safety management, and documentation of previous safety
               incidents.16

    The energetic materials used by NASA fall into three general categories: explosives,
    pyrotechnics, and propellants.

    Explosives. Used extensively throughout NASA, explosives are chemical compounds or
    mixtures that greatly increase in volume, heat, and pressure when subjected to heat,
    friction, impact, detonation, or other types of initiation. For example, the Hypervelocity
    Test Laboratory at White Sands Test Facility uses explosives to initiate a gas gun that

    15
         SpaceShipTwo is a commercial space vehicle being developed by Virgin Galactic to fly crew and
         passengers into suborbital space.
    16
         NASA Safety Center, ―Don’t Mess with Excess: Texas Tech Laboratory Explosion,‖ July 8, 2012.
         http://nsc.nasa.gov/SFCS/ (accessed March 26, 2013).



2                                                                                      REPORT NO. IG-13-013
INTRODUCTION



  propels objects at targets to simulate the damage that can be caused to shields, spacecraft,
  satellites, and spacesuits by flying debris.

  Explosives are classified according to their hazardous characteristics and must be stored
  at a safe distance from personnel and other structures and adequately separated from non-
  compatible materials to prevent unintentional detonation. For example, the explosive
  material lead azide is not permitted to be stored with initiating devices. See Appendix C
  for the Explosives, Propellants, and Pyrotechnics Hazard Classification System and
  Appendix D for Explosives Storage Requirements.

  Pyrotechnics. Pyrotechnics are small, electrically initiated explosives used to detonate
  higher-order explosive materials.17 These devices are mission critical to NASA and
  require near-perfect operational reliability. Pyrotechnics include ignition devices,
  explosive charges, train assemblies, functional component assemblies (explosive nuts,
  bolts, valves, and escape systems), and systems that provide electrical current to igniters
  and other parts of an explosive assembly.

  Propellants. Propellants are liquid or solid materials used for propulsion or for
  producing power for missiles, rockets, and other related devices. Some propellants are
  highly toxic and can detonate unexpectedly under certain environmental conditions.

  All space missions incorporate one or more of the energetic materials described above.
  For example, lifting a satellite into orbit using an Atlas V expendable launch vehicle
  begins with the electrical initiation of the propellant fuel – refined kerosene combined
  with liquid oxygen – feeding the first stage rocket engines. Subsequent points at which
  energetic materials are used include jettisoning the solid rocket boosters strapped to the
  main rocket once their fuel has been expended; separating the protective cover and nose
  cone covering the satellite payload; separating the first stage of the rocket from the
  second stage; and igniting the second stage engines.


Regulations Pertaining to Explosive Safety

  The Occupational Safety and Health Administration (OSHA) established standards
  applicable to all highly hazardous chemicals including energetic materials to aid
  employers in their efforts to prevent or mitigate chemical releases that could result in a
  fire or explosion.18 In addition, Department of Transportation (DOT) regulations




  17
       High-order explosives produce a supersonic, over-pressurization shockwave. Trinitrotoluene (TNT) is an
       example of this type of explosive material.
  18
       29 Code of Federal Regulations (CFR) § 1910.109 details the requirements for the storage and handling
       of explosive materials and 29 CFR § 1910.119 requires the conduct of a hazardous analysis for some
       highly hazardous materials.



REPORT NO. IG-13-013                                                                                            3
                                                                                                       INTRODUCTION



    establish transportation requirements for explosive materials and a classification system
    describing the hazards and compatibility of such materials.19

    NASA standards incorporate the applicable laws and regulations pertaining to energetic
    materials, including those promulgated by OSHA and DOT.20 The Standard states that
    safety must be an ongoing concern and given the highest priority in all program decisions
    involving energetic materials. In addition, it requires compliance with the cardinal
    principle for explosive safety: expose the minimum number of people to the smallest
    quantity of explosives for the shortest period of time consistent with the operation being
    conducted.

    The NASA Headquarters Explosive Safety Manager is responsible for establishing the
    explosive safety requirements for the Agency’s Explosives, Propellants, and Pyrotechnic
    Safety Program (Explosives Safety Program). NASA policy directs each Center Director
    to designate an Explosive Safety Officer (ESO) who is responsible for implementing and
    tailoring those requirements to meet Center operational objectives.21 The ESO is also
    charged with ensuring that the Center’s Explosives Safety Program meets all applicable
    regulations and protects people and property from mishaps. ESOs are required to review,
    validate, and approve all energetic material operations and processes, facility site plans,
    and explosive site licenses.22


NASA Centers and Facilities Visited and Their Use of Energetic
 Materials

    NASA has 18 Centers and Facilities, including Headquarters, a large majority of which
    procure, store, handle, or transport energetic materials. The following locations were
    selected due to their direct involvement with NASA explosive operations; the quantity of
    the energetic materials stored; and contractor or tenant use of energetic materials on
    NASA property.23

    Glenn Research Center. Glenn Research Center (Glenn) is divided into two geographic
    locations – Lewis Field and Plum Brook Station. Located on 350 acres of land near
    19
         49 CFR Chapter I, Subchapter C, Hazardous Materials Regulations, § 171–178, details the requirements
         for transporting, storing, and categorizing explosive materials.
    20
         There is no OSHA standard applicable to launch vehicle propellants; therefore, NASA was required to
         create and submit for OSHA’s approval NASA Standard (NASA-STD) 8719.12, ―Safety Standard for
         Explosives, Propellants, and Pyrotechnics,‖ January 29, 2010, as a supplement to 29 CFR § 1910.109.
    21
         NASA Procedural Requirements (NPR) 8715.3C, ―NASA General Safety Program Requirements,‖
         March 12, 2008.
    22
         NASA-STD-8719.12 requires that the facility site plan show how protection is provided against
         explosion propagation between adjacent storage areas or buildings in order to protect personnel from
         serious injury or death. NASA requires a site license for all facilities storing or using energetic materials
         and serves as formal documented permission from the ESO to operate an explosives facility.
    23
         The tenant lease is not for the purpose of contracted delivery of services, support, or tangible products for
         NASA programs.



4                                                                                             REPORT NO. IG-13-013
INTRODUCTION



  Cleveland Hopkins International Airport, Lewis Field is Glenn’s main campus with more
  than 150 buildings and an airfield. Lewis Field facilities include wind tunnels, drop
  towers, vacuum chambers, and an aircraft hangar. The explosives stored at Lewis Field
  are used primarily in support of aircraft operations.

  Plum Brook Station is situated on 6,400 acres of land located 50 miles west of Cleveland
  in Sandusky, Ohio and has several unique test facilities that simulate the environment of
  space. During World War II, explosive materials, including trinitrotoluene (TNT), were
  manufactured at Plum Brook Station, and the Army built 99 bunkers at the site to store
  the material. NASA organizations, contractors, and tenants still use some of these
  bunkers to store hazardous chemicals and explosives (see Figure 3). While both of the
  Glenn locations store energetic materials, the majority are owned and stored by tenants
  physically located at Plum Brook.

  Figure 3. Hazardous chemical bunker (left) and explosive material bunker (right)




  Source: NASA OIG and Glenn ESO, respectively

  Stennis Space Center. At 13,800-acres, Stennis Space Center (Stennis) is the Nation’s
  largest rocket engine test facility. The facility has access to water through canal
  waterways from the Pearl River and the Gulf of Mexico, and provides a 125,000 acre
  protective safety and sound buffer zone ideal for transporting and testing large rocket
  stages, components, and propellants. The Center also leases property and buildings to
  more than 30 Federal, state, academic, and private organizations.

  Stennis primarily uses explosives and propellants in support of large and small scale
  rocket engine testing. Stennis test facilities use propellants such as liquid oxygen, liquid
  hydrogen, isopropyl alcohol, and methane for its engine testing programs and the Center
  has a High Pressure Gas Facility that stores and provides gaseous variants of helium,
  nitrogen, and hydrogen to support operations.

  Wallops Flight Facility. Wallops Flight Facility (Wallops), located on Virginia’s
  Eastern Shore, is a component Facility of the Goddard Space Flight Center. As one of
  the oldest launch sites in the world, more than 14,000 rockets have been launched at
  Wallops since 1945. Currently, Wallops is NASA’s principal Facility for the
  management and implementation of suborbital research programs.




REPORT NO. IG-13-013                                                                             5
                                                                                     INTRODUCTION



    Divided into the Main Base and Wallops Island, the Facility uses both solid and liquid
    propellants in its rocket launches. Of the Centers we visited, Wallops had the largest
    quantity of high-order, mass detonating explosive material – approximately
    100,000 pounds. To put this into perspective, the 1995 Oklahoma City bombing involved
    4,000 pounds of a similarly classified explosive material.

    White Sands Test Facility. White Sands Test Facility (White Sands), a component
    Facility of the Johnson Space Center located near Las Cruces, New Mexico, conducts
    simulated flight-mission testing to develop full-scale propulsion systems. The scientific
    investigation of explosion phenomena at White
    Sands is aimed at improving safety at launch             Figure 4. Destructive test of solid
    facilities and other areas where energetic materials     rocket motor
    are used. Although White Sands is primarily
    responsible for supporting NASA programs, in
    recent years the Facility has taken on the additional
    task of helping industrial firms design, test, and
    operate hazardous systems utilizing energetic
    materials. White Sands receives requests for
    technical services from other NASA Centers, private
    industry, the Department of Defense, and other
    Government agencies. White Sands uses some
    explosives and propellants and performs extensive
    tests utilizing cryogenic and hypergolic propellants
    such as liquid oxygen, hydrocarbon, hydrazine,
    monomethylhydrazine, nitrogen tetroxide, gaseous
    and liquid methane, and solid rocket propellants (see
    Figure 4).                                               Source: NASA

Objectives

    We initiated this audit to examine whether NASA’s internal controls for storage, handling,
    transportation, and accounting of energetic materials were adequate to protect Agency
    personnel and facilities, and the general public. See Appendix A for details of the audit’s
    scope and methodology, our review of internal controls, and a list of prior coverage.




6                                                                            REPORT NO. IG-13-013
RESULTS




                   NASA’S EXPLOSIVES SAFETY PROGRAM EXPOSES
                                  PERSONNEL AND PROPERTY TO
                                           UNNECESSARY RISK

          We found that NASA’s Explosives Safety Program was poorly managed and
          exposed personnel and structures to unnecessary risk. Specifically, we identified
          155 violations of regulations, policies, procedures, and processes involving unsafe
          conditions and practices at the sites we visited – some of which could have resulted
          in significant damage, injury, or death to NASA personnel, contractors, and
          potentially to the public (see Appendix B). Systemic deficiencies we observed
          included incompatible explosive materials stored in the same space, inaccurate or
          incomplete inventories of materials, and improper inspection procedures for
          transport vehicles. In our judgment, a lack of oversight, resources, and training at
          both the Center and Headquarters levels contributed to the deficiencies we identified.

          We promptly notified appropriate officials at each of the sites we visited of issues
          that posed an immediate safety concern, and responsible personnel addressed those
          issues in a timely manner. However, in this report we recommend additional actions
          NASA should take to improve its Explosives Safety Program.


The Safety of Personnel and Facilities are at Risk

  Improper Storage and Handling of Energetic Materials. We identified multiple
  instances at each of the sites we visited where critical internal controls for safe storage
  and handling of energetic materials had not been implemented or were inadequate. As a
  result, we found that NASA had potentially placed Center personnel, facilities, and the
  public at unnecessary risk.

  Below we discuss several examples of improper storage and handling of energetic
  materials we uncovered.

  Stennis. At Stennis we identified safety issues at a building that was being used to both
  store and test energetic materials (see Figure 5). First, the building did not meet basic
  requirements to serve as an explosives storage facility. For example, it lacked adequate
  firewalls, operational shields, a blast-resistant roof, or containment structures. In
  addition, the building’s walls were not designed to withstand overpressure from an
  inadvertent detonation of the quantity, type, and class of energetic materials stored there.

  Second, incompatible energetic materials were stored in the building. The ESO did not
  appropriately account for the combined effects of the materials, which resulted in a




REPORT NO. IG-13-013                                                                             7
                                                                                                         RESULTS



    miscalculation of the safe separation distance between the energetic materials and other
    occupied buildings. Specifically, high-order, mass detonating explosive material was
    improperly co-located with
    pyrotechnic explosive devices             Figure 5. Explosives storage facility building
    sensitive to ignition. Personnel and
    property were placed at great risk
    because the quantity and type of
    explosive materials exceeded the
    design constraints of the building and
    the facility was located too close to
    an adjoining building. Based on
    calculations by a Department of
    Defense subject matter expert, if the
    stored material detonated, 42 percent
    of a nearby occupied building would
    have sustained structural damage and      Source: NASA OIG
    15 percent of the personnel inside
    could have sustained fatal injuries.24

    Third, testing was being performed with energetic materials that were incompatible with
    the materials stored in the building. Specifically, the building was being used to conduct
    testing involving electro-explosive devices. Although personnel were protected by a
    bullet-proof shield, the design did not meet NASA standards for concurrent operations.

    Fourth, pyrophoric material was being improperly stored outside of the building;
    specifically, the material was not stored in fire-proof containers. Moreover, the storage
    area violated the required safe separation distance from the explosives stored within the
    building.25 Pyrophorics are toxic, extremely volatile, and highly reactive chemicals that
    can spontaneously combust when exposed to moisture in the air. If this material ignited
    unintentionally, the ensuing fire could potentially spread to the area in the inadequately
    designed building where other explosive materials were stored.

    Operations and testing with energetic materials should not take place in the same location
    where explosives are stored. Moreover, NASA requires that operating locations only
    store the minimum quantity of explosive materials necessary to carry out operations in a
    safe, efficient manner. Because the ESO did not consider that the building would be used
    for testing when making a determination regarding its suitability as a storage facility, he
    did not consider such important design features as appropriate lightning protection and
    24
         As part of our review, a subject matter expert from the Department of Defense Explosive Safety
         Board (DDESB) provided this assessment. The DDESB authors the Department of Defense Manual
         6055.09-M Volume 1, ―DoD Ammunition and Explosives Safety Standards: General Explosives Safety
         Information and Requirements,‖ February 29, 2008; evaluates scientific data; reviews and approves
         explosives site plans; and inspects locations at which U.S. munitions are used and stored.
    25
         The pyrophoric was identified as triethylaluminum-triethylboron – UN2003. Acute exposure causes
         severe burns to the eyes, nose, throat, mucous membranes, and lungs, while chronic exposure can cause
         permanent damage to the central nervous system and liver.



8                                                                                       REPORT NO. IG-13-013
RESULTS



  electrical surge suppression, overpressure protection from explosions or chemical
  releases, and prohibitions on potential ignition sources from radio antennas and highly
  flammable, toxic chemicals used and stored both inside and outside the structure. As part
  of the ESO’s hazard analysis and review, he should have considered the building’s
  previous use as a test facility and made recommendations on procedural and engineering
  changes to conform to requirements for energetic materials storage and protection of
  personnel and assets. Alternatively, the ESO could have identified an alternate location
  for storage or testing.

  The ESO is required to review, validate, and approve all energetic material operations
  and processes, facility site plans, and explosive site licenses. However, the ESO’s lack of
  knowledge and experience in explosives safety, in our judgment, not only contributed to
  these violations, but permitted these deficiencies to remain uncorrected.

  Following our visit, Stennis personnel removed the high-order explosive materials from
  the facility, thereby negating the immediate threat to other buildings and personnel.
  Additionally, inappropriate indoor storage magazines were being replaced, the grounding
  system reevaluated, and the surge and lightning protection system redesigned.
  Furthermore, measures were underway to improve the outdoor storage area for the
  pyrophoric materials and to install an appropriate fire wall to separate the storage area
  from the rest of the facility.

  White Sands. We observed two wooden shipping crates containing dextrinated lead azide
  (lead azide), the quantity and condition of which was unknown by site personnel (see
  Figure 6). Lead azide is a highly toxic, high-order, mass detonating explosive that is
  extremely sensitive to impact, friction, and static electricity
  and can detonate if dropped from heights as low as 6 inches. Figure 6. Lead azide crate
  Many energetic materials, including lead azide, become
  increasingly unstable and more susceptible to detonation as
  they age. However, it is extremely difficult to predict at
  what point the material becomes so unstable that it could
  explode.

  The ESO opened the crates, each of which contained
  25 separate compartments. All 25 compartments in the first
  crate were filled with sealed bags containing 50 grams each
  of lead azide. The second crate had 19 compartments
  containing lead azide, 18 of which were filled with bags         Source: NASA OIG
  containing 50 grams and 1 filled with 2.6 grams of the
  material. A few of the bags were inflated similar to a balloon, causing concern regarding
  the condition of the chemical.

  The DOT Code of Federal Regulations requires that lead azide be shipped and stored in a
  ―wetted‖ condition – not less than 20 percent water or a water-alcohol mixture – and
  cautions that once the material dries out it becomes highly unstable and sensitive to
  detonation. Some of the bags appeared to contain yellowish brown residue, indicating


REPORT NO. IG-13-013                                                                            9
                                                                                                     RESULTS



     that the material may have dried out and possibly crystallized. Lead azide is most
     sensitive to detonation in this state.

     In our opinion, had the ESO not opened the crates, the condition of the lead azide would
     have remained unknown, placing personnel attempting to transport or handle this
     sensitive material at high risk. Any sudden movement would likely have resulted in an
     explosion causing death, serious injury, or damage to equipment and facilities. Given the
     severity of the hazard, on-site safety personnel destroyed the material after our departure
     from the facility.

     Wallops. Of the four sites that we visited, Wallops stored the largest quantity
     (approximately 100,000 pounds) of high-order, mass detonating explosive material.
     Most of this material was in the form of propellant in rockets which NASA received from
     the U.S. military. The manufacture dates of these rockets ranged from the late 1950s to
     the early 1970s. The propellant’s sensitivity to detonation or deflagration increases as the
     material ages.

     We observed hundreds of rockets stacked closely together in bunkers, test, and storage
     facilities, most of which had not been inspected by the ESO in at least the past 2 years
     (see Figure 7). The stacked placement increased the probability of a catastrophic event
     because if a single rocket were to ignite or explode it could set off a chain-reaction or
     series of multiple detonations. The ESO stated that he did not have the resources to
     inspect and evaluate the rockets.

     Figure 7. A rocket storage facility (left) and rocket motor igniters packaged in 1972 (right)




     Source: Wallops ESO and NASA OIG respectively

     We also observed numerous instances of improper electrical grounding and lightning
     protection in buildings in which rockets were stored. For example, we found a storage
     bunker with a large ground cable improperly routed just below the roof line. Because the
     cable passed directly through the wall of the bunker and was in close proximity to
     explosive material, the possibility existed that a lightning strike could cause an electrical
     arc and ignite the explosive material resulting in an explosion. Lightning protection is



10                                                                                REPORT NO. IG-13-013
RESULTS



  critically important in the Wallops area because of the frequency and intensity of summer
  thunderstorms.

  Glenn. At Lewis Field, we observed a portable storage magazine that was in poor
  condition, and inappropriately positioned along the fence line of a parking lot where it
  posed a potential danger to personnel and vehicles (see Figure 8). In addition, we
  identified improper grounding of the electrostatic discharge workstation used to service
  aircraft ejection seats and canopies. In the same area, we observed prohibited items such
  as plastic packaging materials and tape capable of
                                                          Figure 8. Explosive storage and
  producing a static charge that could cause              adjacent parking lot
  inadvertent detonation of static-sensitive
  pyrotechnics or electro-explosive devices.

  Inaccurate Inventories and Control of Energetic
  Materials. The Government Accountability Office
  (GAO) states that proper internal monitoring
  includes regularly checking inventory levels of
  materials, supplies, and other assets; correcting
  differences between recorded and actual amounts;
  noting the causes for all discrepancies; and taking
  appropriate steps to preclude recurrence.26 NASA
  policy requires that hazardous material inventories
  be conducted at least annually.27 We requested a
  copy of the inventories at each Center and Facility
                                                                     Source: NASA OIG
  visited and judgmentally selected a sample to
  validate completeness and accuracy.

  We found that the ESOs at the four sites we visited had never verified the completeness
  or accuracy of their inventory records. Accurate accounting of stored explosives is
  critical for determining safe separation distances between storage facilities and occupied
  buildings. Likewise, without an accurate accounting of the type, class, and net weight of
  stored explosive material, an ESO cannot determine whether incompatible materials are
  stored together (see Appendices C and D for the hazard classification system and storage
  requirements, respectively).

  At Wallops and White Sands, we found energetic materials that could not be accounted
  for or reconciled with inventory records. For example, at Wallops we found that
  27 individual explosive components and assemblies, ranging from small arms
  ammunition to rocket motors, could not be accurately reconciled with inventory records.
  At White Sands, we found 11 boxes of explosive initiators stored in a magazine that were
  not accounted for in the inventory records. In addition, inventory records reflected
  26
       GAO, ―Internal Control Management and Evaluation Tool‖ (GAO-01-1008G, August 2001)
  27
       Typical hazardous materials are those that may be highly reactive, poisonous, explosive, flammable,
       combustible, corrosive, and radioactive; produce contamination or pollution of the environment; or cause
       adverse health effects or unsafe conditions.



REPORT NO. IG-13-013                                                                                              11
                                                                                                          RESULTS



     408 pounds of the toxic and highly reactive propellant dimethylhydrazine (UDMH) in
     storage when the actual amount was 1,996 pounds.28 We questioned White Sands
     personnel on the discrepancy and they discovered that it was a mathematical error on the
     spreadsheet.

     The inventory discrepancies identified at Wallops and White Sands are summarized in
     Table 1 below.


                                 Table 1. Summary of Inventory Discrepancies
                Center or Facility       Part Description        Inventory Record      Physical Count
                Wallops Main
                Base                  Black Brant Mk2                      5                  4
                                      Improved Malemute                    4                  3
                                      M5E1 Nike                            21                 22
                                      9mm Ammunition
                                      (1000/box)                           18                 15
                                      MK11TALOS                            7                  10
                                      MK 70 Terrier/MK 12
                                      Terrier                              22                 21
                                      M112 Imp ORION                       47                 64
                Wallops Island        M58 Taurus Igniter                   5                  7
                                      Spin Motor Grains                    0                  1
                                      Thrust Terminator                    0                  2
                                      Detectors Electronics                0                  5
                                      Rocket Motor MK 40                   0                  17
                                      Viper IIIA                           0                  1
                                      Rocket Motor                         0                  1
                                      M37E1 Spin Motor                     4                  0
                                      Mk70 Terrier                         5                  0
                                      Improved Malemute                    2                  0
                                      Improved Orion                       2                  0
                                      Box of unknown part                  0                  1
                                      Box of (0.6 kg) power
                                      devices                              0                  1
                                      Box of (2.26 kg) fuses               0                  1
                                      Box of (11.33 kg) fuses              0                  2
                                      Box of 10 lbs fuses                  0                  1
                                      Box of 2.26 kg power
                                      devices                               0                 1
                                      Box of 15 lbs fuses                   0                 1
                                      Squibs                                0                 1
                                      Motor igniters                        0                 1
                White Sands           Box of J-2X Initiators                0                 11
                                      UDMH (lbs)                           408              1,996
                lbs - pounds                              kg - kilograms

     28
          UDMH is a high-energy propellant used in liquid-fueled rockets and small electrical power-generating
          units. It is an irritant, highly toxic, causes blood anemia, and is corrosive.



12                                                                                       REPORT NO. IG-13-013
RESULTS



   We also identified inventory records that were not complete. For example, inventory
   records at White Sands did not include the type, class, or net weight of materials.
   Further, inventory records at all the Centers and Facilities we visited did not reflect the
   date of manufacture or the shelf life of stored energetic materials. Without this
   information, ESOs cannot ensure that stored energetic materials have not surpassed their
   shelf lives.

   No Record of Vehicle Inspections. NASA policies establish detailed safety standards,
   requirements, and guidelines for vehicles used to transport energetic materials. The
   presence of potential ignition sources (heat or electrical spark) and exposure to
   mechanical vibration and shock during motor transport necessitate that all vehicles used
   to transport energetic materials be inspected prior to use. We inspected vehicles used to
   transport energetic materials to determine whether they met requirements that ensure the
   safety of drivers and passengers, the energetic materials, surrounding personnel, and the
   environment. Except for minor discrepancies such as illegible placards, the majority of
   vehicles met the requirements and appeared to be properly maintained (see Figure 9).
   However, no inspection records were being kept for these vehicles.

 Figure 9. Illegible placards on vehicles that are used to transport energetic material




 Source: NASA OIG

   The ESOs told us that vehicle inspections are performed prior to loading and transporting
   energetic materials. However none of the sites we visited could produce inspection
   records or checklists of these inspections. The Department of Defense has a general
   vehicle safety checklist that meets the DOT requirements for transport of hazardous
   materials.29 In our judgment, it would be a best practice for NASA to utilize a similar
   checklist to help ensure that critical safety systems on vehicles used to transport energetic
   materials are in safe working order.


   29
        Department of Defense Form 626, ―Motor Vehicle Inspection (Transporting Hazardous Materials),‖
        October 2011, is available at http://www.dtic.mil/whs/directives/infomgt/forms/eforms/dd0626.pdf
        (accessed March 26, 2013) and reprinted in Appendix E.



REPORT NO. IG-13-013                                                                                       13
                                                                                                      RESULTS



Improvements Needed in Oversight, Resources, and Training

     NASA policy and procedures require annual inspections and assessments of all energetic
     materials and storage facilities. However, we found a general lack of oversight,
     resources, and training that significantly reduces the effectiveness of NASA’s Explosives
     Safety Programs and increases the likelihood of a catastrophic event.

     Lack of Center Oversight. Center ESOs are required to conduct an annual inspection,
     inventory, and hazard analysis of all energetic materials and storage facilities located at
     their sites. NASA-STD-8719.12 requires an audit system that routinely evaluates
     adequacy, availability, currency, and compliance with NASA policies and procedures and
     details specific inspections needed to ensure the adequacy of program execution, such as
     semiannual inspection of lightning protection systems and annual testing of the continuity
     and adequacy of electrical grounding.

     Each Center and Facility that we visited also established internal operating procedures
     intended to augment the ESOs’ responsibilities as defined in NASA’s general safety
     policy and NASA-STD-8719.12. For example, White Sands requires a 100 percent
     physical inventory and inspection be conducted on a quarterly basis. At Glenn, the
     explosives inventory is to be audited annually by the ESO and the inventory database is
     required to be updated by users when explosives are removed from or added to storage
     facilities. Stennis requires the ESO to conduct annual audits (including a site
     walkthrough) of all explosive operations.

     Despite these requirements, none of the sites we visited performed appropriate annual
     inspections and none of the inspection records we examined included a physical count of
     individually packaged explosive devices or an evaluation of the condition of these
     materials. While Center ESOs stated that general maintenance inspections of their
     facilities were conducted, none of the sites properly documented these inspections and no
     ESO had checked their accuracy or the physical condition of inventoried items.

     We also found that the ESOs at Stennis and Glenn did not provide adequate oversight of
     the explosive materials owned and stored by tenants who lease property at their
     respective Centers.30 NASA’s general safety policy states that the Center ESO is
     responsible for assuring oversight of NASA-STD-8719.12 requirements and for
     reviewing all Memorandums of Agreement regarding energetic materials. The policy
     also states:

                If the ESO represents NASA as the Host [of a tenant organization], the ESO assures
                compliance with all appropriate elements of this NPR. In all cases, the ESO assures
                that agreements are formalized to maximize the health and safety of NASA
                employees and facilities.




     30
          Wallops and White Sands did not have tenants that stored energetic materials.



14                                                                                        REPORT NO. IG-13-013
RESULTS



  However, except for one tenant at Stennis, neither Center ESO validated inventory
  records, conducted safety inspections, or assured compliance of their tenants’ facilities
  with NASA’s policies. Tenants at Stennis and Glenn include the U.S. military, other
  Federal agencies, private industry, and academia. Table 2 summarizes the level of
  oversight provided by the ESO to the tenants at Stennis and Glenn.

                  Table 2. Summary of NASA’s ESO Oversight of Tenants
                                    Safety Clause in    Inspection Access       Inspection
    Center          Tenant
                                      Agreement             Allowed             Performed
              +
                Mississippi State
   Stennis                                Yes                  Yes                  No
                  University
                Pratt-Whitney
    Stennis                               Yes                  Yes                  Yes
                  Rocketdyne
                +
    Stennis       Rolls-Royce             Yes                  Yes                  No
    Stennis       U.S. Navy               Yes                  No                   No
    Glenn            *FBI                 Yes                  Yes                  No
    Glenn          **USDA                 Yes                  Yes                  No
  +
    Does not currently store energetic materials
  * Federal Bureau of Investigation
  ** U.S. Department of Agriculture

  At Stennis, the majority of explosive materials are owned and stored by the U.S. Navy.
  Except for one discussion involving safe separation distances, the Stennis ESO had
  minimal contact with the Navy ESO. The Stennis ESO does not have any
  communication with commercial tenants that may use and store energetic materials, such
  as Rolls-Royce, despite the fact that the lease agreement clearly states that the tenant
  shall grant NASA access to inspect its facilities. The Stennis ESO stated that he had no
  knowledge of the commercial tenants’ use of energetic materials and the Center had not
  conducted any oversight inspections.

  At Glenn’s Plum Brook Station, the majority of stored energetic materials, including
  military and small arms ammunition, is owned by tenants. Glenn requires tenants to
  provide an annual inventory list; however, the ESO had not validated the accuracy of the
  inventory record. We reviewed the inventory records and found insufficient data to
  ensure that the energetic materials were properly stored. For example, the FBI provided
  the ESO an inventory list that appears to indicate that initiating devices are improperly
  stored with high-order mass detonating explosives. The ESO did not follow up on this
  potential violation to confirm the accuracy of the information or to mitigate the
  potentially hazardous situation. Although tenant agreements generally contain a ―hold
  harmless clause‖ that may protect NASA from financial liability, personnel, property, and
  the public remain at risk of physical harm.

  Lack of Headquarters Oversight. Although, Agency policy states that the overall
  responsibilities of the Headquarters Office of Safety and Mission Assurance include


REPORT NO. IG-13-013                                                                          15
                                                                                                       RESULTS



     verifying the effectiveness of the Center’s Explosives Safety Programs to ensure that
     adequate levels of both programmatic and institutional resources are applied, NASA
     Headquarters does not conduct inspections, provide guidance, or perform oversight of the
     Centers’ Programs.31 The NASA Headquarters Office of Safety and Mission Assurance
     is staffed by 32 employees, one of whom is the Headquarters Explosives Safety Manager.
     According to him, the primary role of Headquarters is to develop Agency-wide
     Explosives Safety Program policies and procedures. He further stated that his office does
     not:

               have the resources to oversee each Center’s Explosive Safety Program;

               provide funding to Centers’ Explosives Safety Programs; or

               oversee Program performance.

     Instead, Headquarters relies on each Center’s Safety and Mission Assurance Directorate
     to oversee their respective programs.

     In addition, the Headquarters Office of Safety and Mission Assurance requires the NASA
     Safety Center to conduct Institutional/Facility/Operational (IFO) Safety Audits on behalf
     of NASA Headquarters every 3 years.32 The IFO process provides independent
     verification that institutions, facilities, and operations at each NASA Center comply with
     Agency safety requirements, including applicable Federal, state, and local safety and
     health statutes and regulations. These audits are designed to cover a wide variety of
     areas, including energetic materials. However, the NASA Safety Center has not
     conducted an IFO audit of the Centers’ Explosives Safety Programs, and Headquarters
     personnel have not conducted an audit or Explosives Safety Program review at the sites
     we visited in more than 10 years.

     Lack of Dedicated Resources. NASA management does not provide sufficient
     resources to ensure the Agency’s Explosives Safety Programs are conducted in
     accordance with NASA-STD-8719.12. We found that that the Center ESOs did not have
     sufficient personnel, budget, or time to carry out their assigned responsibilities.

     At each of the Centers and Facilities we visited, ESO duties were considered an ancillary
     or part-time responsibility. This was especially apparent at Wallops where the Safety
     Office Chief, who is responsible for all on-site safety programs, was also carrying out the
     tasks of the ESO. Because his time and effort was devoted to managerial oversight of the
     safety programs under his purview, he was unable to conduct the requisite hazard
     analyses, inspections, and inventory of the vast amounts of energetic materials, storage,
     and test facilities. In our judgment, one staff person does not have adequate time to


     31
          NASA Policy Directive 1000.3D, ―The NASA Organization,‖ December 3, 2008.
     32
          NPR 8705.6B, ―Safety and Mission Assurance Audits, Reviews, and Assessments,‖ May 24, 2011



16                                                                                    REPORT NO. IG-13-013
RESULTS



  address Wallop’s overall safety program requirements and complete the routine tasks of
  an ESO.

  Similarly, the ESO assigned to White Sands is responsible for managing multiple
  geographically dispersed safety critical programs. In addition to White Sands, he is the
  ESO at Johnson and Ellington Field in Houston, Yuma Proving Grounds in Arizona, and
  the NASA Forward Operating Location in El Paso, Texas. Furthermore, this same
  individual was recently assigned as the Pressure Vessel and Systems Program Manager at
  Johnson – another critical safety program.33

  At Stennis, in fiscal year 2012 the Safety and Mission Assurance Directorate had a
  shortfall of three full-time employees. Following the retirement of the previous ESO, the
  ESO responsibilities were allocated to a safety specialist with no previous explosive
  safety experience who is also responsible for the Center’s construction safety program
  and is a member of the Center’s Source Evaluation Board.34 In spite of the discrepancies
  we found in the Center’s Program, the ESO stated that the level of effort did not justify a
  full-time employee.

  A similar lack of resources has also affected operations at NASA Headquarters. The
  Headquarters Office of Safety and Mission Assurance staff decreased from 40 in fiscal
  year 2011 to 32 in 2012. The Headquarters Explosives Safety Manager stated that only
  20 percent of his time is allocated to the Explosives Safety Program because his primary
  responsibilities include oversight of the Government and Industry Data Exchange
  Program and the Interagency Nuclear Safety Program. In addition, except for $30,000 set
  aside for an annual Pyrotechnics Workshop, Headquarters provides no specific budget
  dedicated to the Agency’s Explosives Safety Program. Furthermore, the ESOs from the
  sites we visited stated that their programs are funded from their Center’s Management
  and Operations budgets and that they do not receive separate line-item funding for their
  Center Explosives Safety Programs. We believe this lack of dedicated resources has
  severely hindered the Agency’s ability to meet Explosives Safety Program requirements.

  Lack of Training and Experience. NASA-STD-8719.12 requires each Center to have a
  trained and experienced ESO. However, NASA does not specify the type of training
  required, and as a result we found no consistency in the training received by Agency
  ESOs. In our judgment, none of the ESOs at the sites we visited had the appropriate
  combination of experience and training needed to properly carry out their responsibilities.
  We found that ESO training is insufficient and ESOs are not effectively participating in
  the evaluation of selected explosive, propellant, and pyrotechnic safety training programs
  for staff at their Centers.



  33
       A pressure vessel is any vessel used for the storage or handling of a gas or liquid under positive pressure.
       A pressure system is an assembly of components under pressure such as vessels, piping, valves, relief
       devices, pumps, expansion joints, and gauges.
  34
       A Source Evaluation Board provides analyses of proposals in a procurement solicitation.



REPORT NO. IG-13-013                                                                                                  17
                                                                                          RESULTS



     We reviewed the training records from each Center and Facility to assess the training
     received by ESOs and other personnel handling energetic materials and found that two
     ESOs had not attended formal explosives safety training in the past 14 years; one ESO
     received training 7 years ago, prior to his arrival at NASA; and the fourth ESO had taken
     only a basic explosives training course and told us he did not believe he was qualified for
     the job.

     Proper training ensures that personnel responsible for handling explosives have the
     knowledge and understanding to work safely with energetic materials. NASA policy
     provides specific criteria for training personnel who are responsible for implementing the
     Explosives Safety Program and for personnel who handle explosives. Without similar
     criteria for ESOs’ training requirements, NASA has little assurance that Program
     requirements or personnel training programs are effectively managed.

     We also reviewed the condition of training records for ESOs and other personnel
     handling energetic materials. At the sites we visited, we generally found these records
     inconsistent, incomplete, out of date, and sometimes illegible. Inconsistencies included
     variances in the type of information recorded and many training records were missing
     information such as when the training needed to be refreshed. Incomplete information
     increases the probability that required training could be missed and decreases the
     likelihood that persons managing or working with energetic materials have the required
     knowledge to perform these tasks safely.


Conclusion

     Complacency within an Explosives Safety Program can have disastrous consequences for
     NASA personnel, facilities, and missions. Moreover, absence of a recent mishap does
     not diminish the urgency of immediately addressing the deficiencies we identified in this
     review.

     Our audit uncovered evidence that NASA’s Explosives Safety Programs have been
     neglected and poorly managed, leaving personnel, property, and the public at risk.
     Center ESOs are not conducting required safety inspections, keeping complete and
     accurate inventories, or ensuring tenants’ compliance with NASA’s policies. Oversight
     of the Agency’s Program by Headquarters personnel is non-existent and ESOs
     responsible for implementing the Program do not have the experience or adequate
     training to provide effective oversight. It is imperative that NASA address these
     deficiencies to prevent the possibility of a catastrophic event.




18                                                                          REPORT NO. IG-13-013
RESULTS



Recommendations, Management’s Response, and Evaluation of
  Management’s Response

To improve NASA’s Explosives Safety Program and better ensure the safety and protection
of personnel, property, and the environment, we made the following recommendations to the
Chief of Safety and Mission Assurance:

Recommendation 1. Initiate a review of management, storage, and handling procedures of
energetic materials at all NASA Centers to identify deficiencies, take corrective actions, and
share best practices.

   Management’s Response. The Chief of Safety and Mission Assurance concurred with
   our recommendation, stating that he will coordinate with safety personnel and ESOs at
   the Centers to identify deficiencies, long- and short-term solutions, and update
   procedures as necessary. The Chief expects to complete this review in 120 days.

   Evaluation of Management’s Response. Management’s comments are responsive;
   therefore, the recommendation is resolved and will be closed upon verification and
   completion of the proposed corrective actions.

Recommendation 2. Require that all ESOs inventory energetic materials and initiate
investigations of any missing material.

   Management’s Response. The Chief concurred with our recommendation, stating that
   he will assign Center safety personnel to work with ESOs to update inventories of
   energetic materials and report on any planned investigations within 120 days.

   Evaluation of Management’s Response. Management’s comments are responsive;
   therefore, the recommendation is resolved and will be closed upon verification and
   completion of the proposed corrective actions.

Recommendation 3. Verify that tenant- and contractor-owned energetic materials on
NASA property are stored, handled, and inspected in accordance with NASA procedural
requirements and applicable safety standards.

   Management’s Response. The Chief partially concurred with our recommendation,
   stating that he will coordinate with the Center safety directors to review the energetic
   materials stored by tenants and contractors on NASA property and their procedures and
   processes to ensure the safety of personnel. He also stated that NASA will conduct this
   review in accordance with the terms of existing agreements.

   Evaluation of Management’s Response. We agree that it is appropriate for NASA to
   consider the terms of existing agreements when conducting its review. However, the
   agreements we reviewed in the course of our audit permit NASA to verify, by inspecting
   or otherwise observing, that tenants’ materials are stored and handled in accordance with
   Agency requirements. Therefore, we believe that NASA should take such steps to verify


REPORT NO. IG-13-013                                                                             19
                                                                                         RESULTS



     the safety of energetic materials stored by tenants. Accordingly, we are resolving the
     recommendation but it will remain open until we verify that NASA is taking appropriate
     corrective action, including verification steps when permitted.

Recommendation 4. Require that an inspection checklist is used and retained for vehicles
used to transport energetic materials.

     Management’s Response. The Chief concurred with our recommendation, stating that
     within 180 days he will verify with Center safety directors that a current and accurate
     checklist is being used for vehicles transporting energetic materials.

     Evaluation of Management’s Response. Management’s comments are responsive;
     therefore, the recommendation is resolved and will be closed upon verification and
     completion of the proposed corrective actions.

Recommendation 5. Review the responsibilities of Headquarters Explosives Safety
Program personnel and assign duties that will provide effective oversight of Center
Explosives Safety Programs.

     Management’s Response. The Chief concurred with our recommendation, stating that
     within 180 days he will review Headquarters roles and responsibilities and modify them
     as needed.

     Evaluation of Management’s Response. Management’s comments are responsive;
     therefore, the recommendation is resolved and will be closed upon verification and
     completion of the proposed corrective actions.

Recommendation 6. Review personnel and fiscal resource allocations for the Agency’s
Explosives Safety Program and correct deficiencies.

     Management’s Response. The Chief concurred with our recommendation, stating that
     he will coordinate with Center safety directors to review resource allocations within
     180 days. The Chief pledged to work with the Centers to address their resource
     requirements, but noted this was an ongoing process given the limited budget for
     Explosives Safety Programs and the potential need to request additional funding.

     Evaluation of Management’s Response. We recognize the challenges associated with
     addressing the numerous deficiencies identified in a fiscally constrained environment.
     While we appreciate the Chief’s plan to work with the Centers, we encourage NASA to
     evaluate costs versus risks during that review and allocate appropriate resources.
     Therefore, the recommendation is resolved but will remain open until verification and
     completion of the proposed corrective actions.

Recommendation 7. Review training requirements, qualifications, and records of all ESOs
and energetic material handlers and correct deficiencies. Specifically, establish criteria for



20                                                                        REPORT NO. IG-13-013
RESULTS



ESO training and ensure that ESOs and energetic material handlers have appropriate
experience and up-to-date training to carry out their responsibilities safely.

  Management’s Response. The Chief concurred with our recommendation, stating that
  he will coordinate with Center safety directors to review ESO and energetic materials
  handlers training and qualifications and identify deficiencies within 90 days. He also
  stated that training criteria and short- and long-term solutions will be identified within
  one year.

  Evaluation of Management’s Response. Management’s comments are responsive;
  therefore, the recommendation is resolved and will be closed upon verification and
  completion of the proposed corrective actions.




REPORT NO. IG-13-013                                                                           21
APPENDIXES




                                                                        APPENDIX A


Scope and Methodology

  We performed this audit from April 2012 through March 2013 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  We reviewed explosive material safety requirements contained in the following NASA
  policies, as well as Center-specific policies that corresponded with NASA guidance:

  • NPR 8715.3C, ―NASA General Safety Program Requirements (w/Change 7)‖
    March 12, 2008

  • NASA Policy Directive 1000.3D, ―The NASA Organization w/Change 37 (May 25,
    2012),‖ December 03, 2008.

  • NPR 8705.6B, ―Safety and Mission Assurance (SMA) Audits, Reviews, and
    Assessments,‖ May 24, 2011.

  • NASA Standard 8719.12, ―Safety Standard for Explosives, Propellants, and
    Pyrotechnics with Change 2,‖ December 12, 2011.

  • Draft GLM–QSA–1700.1, ―Glenn Research Center, Glenn Safety Manual,
    Chapter 18—Explosives, Propellants, and Pyrotechnics.‖

  • Stennis Space Center SPR 1600.1, ―John C. Stennis Space Center Security
    Requirements Handbook, Rev B,‖ June 30, 2011.

  • Stennis Space Center SSP-8715-0001, ―John C. Stennis Space Center Safety and Health
    Handbook, Rev C,‖ January 31, 2012.

  • Wallops Flight Facility Procedures and Guidelines 800-PG-8715.0.2C, ―Training and
    Certification Procedures for Ordnance Handlers at GSFC/WFF,‖ March 19, 2010.

  • White Sands Test Facility Standard Instruction 25-SW-0014.E, ―Ordnance Operations,‖
    March 5, 2004.

  • White Sands Test Facility Standard Procedure 25-0007.E, ―WSTF Explosives,
    Propellants and Pyrotechnics (EP&P) Safety Program,‖ September 20, 2011.


REPORT NO. IG-13-013                                                                         23
                                                                                        APPENDIX A



     To determine whether NASA had adequate internal controls for transportation, storage,
     and handling of energetic materials, we conducted fieldwork at Glenn, Stennis, Wallops,
     and White Sands. We interviewed NASA and contractor employees to gain an
     understanding of the Centers’ Explosives Safety Program and operations.

     To determine whether NASA had adequate controls in place to account for energetic
     materials, we selected and reviewed accounting records and performed a physical
     inventory to identify any explosive material not recorded in the site inventory process
     (receipt/acceptance, storage, usage, transfer, and disposition) and any lost or stolen
     materials.

     To determine whether NASA applied adequate procedures for safe storage and handling
     of energetic materials, we inspected magazine sites for compliance with applicable safety
     requirements, such as magazines no longer safe for storing explosive materials;
     magazines located in areas encroached by civilian population; incompatible explosive
     materials stored in the same magazine; and explosive materials stored in a magazine that
     does not meet design requirements.

     To determine whether NASA Headquarters and Centers provided adequate oversight to
     ensure that the applicable requirements of NASA-STD-8719.12 were implemented and
     supportive of Center, program, and project missions, we interviewed personnel about
     their oversight roles and responsibilities. We also assessed the Center, facilities, and
     Headquarters Office of Safety and Mission Assurance oversight procedures to determine
     whether oversight reviews were conducted as required. We also reviewed tenant
     agreements related to the storage of explosive materials to determine whether the NASA
     requirements and oversight were implemented for the tenant storage and operations.

     To assess whether NASA implemented requirements that ensure the safe transportation
     of energetic materials, we inspected vehicle and transportation records to determine
     whether any violations or improper operations had occurred.

     Use of Computer-Processed Data. We did not use computer-processed data to perform
     this audit.


Review of Internal Controls

     We performed an assessment of the internal controls associated with NASA’s
     transportation, storage, and handling of energetic materials. Throughout the audit we
     reviewed controls associated with the audit objectives and determined that NASA’s
     internal controls and program oversight were inadequate to ensure the safety and
     protection of its personnel and facilities from the potentially devastating effects of
     energetic materials. Specifically, at the four sites we visited, we identified 155 individual
     discrepancies regarding the storage and handling of energetic materials and the accuracy
     and completeness of explosives inventories. Headquarters and Center officials were
     receptive to the individual findings and have swiftly addressed the issues that presented


24                                                                           REPORT NO. IG-13-013
APPENDIX A



  an immediate threat to personnel and facilities. However, the systemic issues we
  identified will take significantly greater attention from senior management to correct.


Prior Coverage

  During the past 5 years, the NASA Office of Inspector General (OIG) and the
  Government Accountability Office (GAO) have not issued any reports of particular
  relevance to the subject of this report




REPORT NO. IG-13-013                                                                        25
                                                                                                 APPENDIX B




                                                         SUMMARY OF DISCREPANCIES

     The following table summarizes the discrepancies noted at each site we visited. We
     based our risk assessment on the severity of an event resulting from the discrepancy and
     its probability for occurrence.

                                     Discrepancies by Site Visited
                                              Total Found at    Risk Severity of Discrepancies
           Discrepancy Area                   Center/Facility   High       Medium         Low        Total
Storage and Handling
Storage and Compatibility                                                                             23
              Glenn                                 1                                      1
              Stennis                               9            4            3            2
              Wallops                               8            4            4
              White Sands                           5            2            2            1

Concurrent Operations                                                                                 2
              Stennis                               1            1
              Wallops                               1            1

Labels and Placards                                                                                   11
              Stennis                               3                         3
              Wallops                               4                         1            3
              White Sands                           4                         1            3

Electrostatic Sensitive Discharge                                                                     9
              Stennis                               2                         1            1
              Wallops                               3                         2            1
              White Sands                           4                         3            1

Storage Facility Site Plan and Site License                                                           10
              Stennis                               4            3            1
              Wallops                               3                         2            1
              White Sands                           3                         3

Hazard Assessment                                                                                     4
              Glenn                                 1                         1
              Stennis                               1                         1
              Wallops                               1                         1
              White Sands                           1                         1




26                                                                                 REPORT NO. IG-13-013
APPENDIX B



                            Discrepancies by Site Visited (continued)
                                          Total Found at    Severity of Discrepancies - Risk
           Discrepancy Area               Center/Facility   High        Medium          Low    Total
Storage and Handling (continued)
Grounding and Lightning Protection                                                              21
             Glenn                              4                          2             2
             Stennis                            8                          6             2
             Wallops                            7            2             3             2
             White Sands                        2                          1             1

Storage Facility Maintenance                                                                    4
             Glenn                              1                                        1
             Stennis                            1                                        1
             Wallops                            1                                        1
             White Sands                        1                                        1

Other                                                                                           15
             Stennis                            10           4             2             4
             White Sands                         5                                       5


Accountability                                                                                  8
             Glenn                              1                                        1
             Stennis                            1                                        1
             Wallops                            2                          2
             White Sands                        4            2             1             1

Transportation and Inspection                                                                   4
             Glenn                              1                                        1
             Stennis                            1                                        1
             Wallops                            1                                        1
             White Sands                        1                                        1

Center Oversight                                                                                16
             Glenn                              1                                        1
             Stennis                            4                                        4
             Wallops                            3                                        3
             White Sands                        4                          1             3
             Headquarters                       4                          4

Tenant Oversight                                                                                4
             Glenn                              2                          2
             Stennis                            2                          2




REPORT NO. IG-13-013                                                                                   27
                                                                                               APPENDIX B



                            Discrepancies by Site Visited (continued)
                                          Total Found at    Severity of Discrepancies - Risk
           Discrepancy Area               Center/Facility   High        Medium          Low        Total
Resources                                                                                           8
             Glenn                              1                          1
             Stennis                            1                          1
             Wallops                            3            1             2
             White Sands                        2                          1             1
             Headquarters                       1                          1

Training                                                                                            16
             Glenn                              4                                        4
             Stennis                            4            1                           3
             Wallops                            4                                        4
             White Sands                        4                                        4




28                                                                               REPORT NO. IG-13-013
APPENDIX C




                                              EXPLOSIVES, PROPELLANTS, AND
                                                     PYROTECHNICS HAZARD
                                                    CLASSIFICATION SYSTEM

  1. To ease identification of hazard characteristics and promote safe storage and transport of
     explosives, NASA uses the DOT hazard classification system, which is an
     implementation of the international system of classification devised by the United
     Nations Organization for transport of dangerous goods.

  2. The United Nations classification system consists of nine hazard classes. Thirteen
     compatibility groups are included for segregating explosives on the basis of similarity of
     characteristics, properties, and accident effects potential.

  3. Most explosives are included in the United Nations Class 1. Class 1 is divided into six
     divisions that indicate the character and predominance of associated hazards.

         Hazard Division 1.1, Mass explosion. Items in this division are primarily a blast
          hazard and may be expected to mass detonate when a small portion is initiated by any
          means. Items in Hazard Division 1.1 include bulk explosives, some propellants,
          demolition charges, some missile components, and some rockets.

         Hazard Division 1.2, Non-mass explosion, fragment producing. These items do
          not mass detonate when configured for storage or transportation if a single item or
          package is initiated. When these items function, the results are burning and
          exploding progressively with no more than a few reacting at a time. Blast effects are
          generally limited to the immediate vicinity and are not the primary hazard.

         Hazard Division 1.3, Mass fire. These items burn vigorously, and the fires are
          difficult to put out. Explosions are usually pressure ruptures of containers, which
          may produce fragments (especially missile motors), but do not produce propagating
          shock waves or damaging blast overpressure beyond intermagazine distances.

         Hazard Division 1.4, Moderate fire - no blast. Items in this division present a fire
          hazard with no blast hazard and virtually no fragmentation and/or toxic hazard
          beyond the fire hazard clearance ordinarily specified for high-risk materials. This
          division includes items such as small arms ammunition without explosive projectiles,
          fuse lighters and squibs, colored smoke grenades, and explosive valves or switches.

         Hazard Division 1.5, Very insensitive explosives. This division comprises
          substances that have a mass explosion hazard but are so insensitive that there is very
          little probability of initiation or of transition from burning to detonation under normal
          conditions of transport or storage.




REPORT NO. IG-13-013                                                                                  29
                                                                                     APPENDIX C



           Hazard Division 1.6, Extremely insensitive explosives. This division comprises
            articles that contain only extremely insensitive detonating substances and that
            demonstrate a negligible probability of accidental ignition or propagation.

     The table below summarizes the fire divisions that are synonymous with the Hazard
     Divisions 1.1 through 1.4 for explosives. The hazard decreases with ascending fire
     division numbers.

                                          Fire Division
               Fire    Hazard
              Division Division                Description                Hazard
                                    Explosives that have a mass
                                    explosion hazard. A mass
                                    explosion is one which affects
                                    almost the entire load                 Mass
                  1         1.1     instantaneously.                     Explosion
                                                                         Explosion
                                    Explosives that have a projection
                                                                           with
                                    hazard but not a mass explosion
                                                                         Fragment
                                    hazard.
                  2         1.2                                           Hazard
                                 Explosives that have a fire hazard
                                 and either a minor blast hazard or
                                 a minor projection hazard or both,
                  3       1.3    but not a mass explosion hazard.        Mass Fire
                                 Explosives that present a minor
                                 explosion hazard and moderate
                                 fire hazard. The explosive effects
                                 are largely confined to the
                                 package and no projection of
                                 fragments of appreciable size or         Moderate
                  4       1.4    range is to be expected.                  Fire
             (Source: NASA-STD-8719.12 Section 5)




30                                                                        REPORT NO. IG-13-013
APPENDIX D




                                                             EXPLOSIVES STORAGE
                                                                  REQUIREMENTS


Explosive Storage Principles

  1. The highest degree of safety in explosives storage could be assured if each item or
     division were stored separately. However, such ideal storage generally is not
     feasible. A proper balance of safety and other factors frequently requires mixing of
     several types of explosives in storage.

  2. Explosives shall not be stored together with dissimilar materials or items that present
     positive hazards to the explosives. Examples are mixed storage of explosives with
     flammable or combustible materials, acids, or corrosives.

  3. Different types, by item and division, of explosives may be mixed in storage provided
     they are compatible. Explosives are assigned to a compatibility group when they can
     be stored together without increasing significantly either the probability of an
     accident or, for a given quantity, the magnitude of the effects of such an accident.

Storage and Compatibility Groups

  Explosives are assigned to one of 13 compatibility groups (A through H, J, K, L, N,
  and S).

     Group A. Bulk initiating explosives that have the necessary sensitivity to heat,
      friction, or percussion to make them suitable for use as initiating elements in an
      explosive train. Examples are wet lead azide, wet lead styphnate, wet mercury
      fulminate, wet tetracene, dry cyclonite, and dry pentaerythritol tetranitrate.

     Group B. Detonators and similar initiating devices not containing two or more
      independent safety features. These items are designed to initiate or continue the
      functioning of an explosive train. Examples are detonators, blasting caps, small arms
      primers, and fuses.

     Group C. Bulk propellants, propelling charges, and devices containing propellant
      with or without their means of ignition. These items will deflagrate, explode, or
      detonate. Examples are single-, double-, triple-base, and composite propellants and
      rocket motors (solid propellant).

     Group D. Black powder, high explosives, and devices containing high explosives
      without their own means of initiation and without propelling charge, or a device


REPORT NO. IG-13-013                                                                           31
                                                                                        APPENDIX D



         containing an initiating explosive and containing two or more independent safety
         features. These explosives can be expected to explode or detonate when any given
         item or component is initiated, except for devices containing initiating explosives
         with independent safety features. Examples are bulk trinitrotoluene, Composition B,
         black powder, wet cyclonite, or pentaerythritol tetranitrate.

        Group E. Ammunition containing high explosive without its own means of initiation
         and containing or with propelling charge (other than one containing a flammable or
         hypergolic liquid). Examples are rockets or guided missiles.

        Group F. Ammunition containing high explosive with its own means of initiation and
         with propelling charge (other than one containing a flammable or hypergolic liquid)
         or without a propelling charge.

        Group G. Fireworks, illuminating, incendiary, and smoke, including hexachlorethane
         or tear-producing devices other than those that are water activated or which contain
         white phosphorus or flammable liquid or gel. These devices result in an incendiary,
         illumination, lachrymatory, smoke, or sound effect. Examples are flares, signals,
         incendiary or illuminating, and other smoke or tear-producing devices.

        Group H. Devices containing both explosives and white phosphorus or other
         pyrophoric material. Examples are white phosphorus, plasticized white phosphorus,
         or other devices containing pyrophoric material.

        Group J. Devices containing both explosives and flammable liquids or gels, other
         than those that are spontaneously flammable when exposed to water or the
         atmosphere. Examples are liquid- or gel-filled incendiary devices, fuel-air explosive
         devices, and flammable liquid-fueled missiles.

        Group K. Devices containing both explosives and toxic chemical agents. This group
         contains chemicals specifically designed for incapacitating effects more severe than
         tearing of the eyes.

        Group L. Explosives not included in other compatibility groups. Devices having
         characteristics that do not permit storage with other types or kinds of explosives, or
         dissimilar explosives of this group. Examples are water-activated devices,
         prepackaged hypergolic liquid-fueled rocket engines, damaged or suspect items of
         any group, and explosives in substandard or damaged packaging in a suspect
         condition or with characteristics that increase the risk in storage.

        Group N. Hazard Division 1.6 devices containing only extremely insensitive
         detonating substance.

        Group S. Explosives presenting no significant hazard. Explosives so packaged or
         designed that any hazardous effects arising from accidental functioning are confined



32                                                                           REPORT NO. IG-13-013
APPENDIX D



      within the package. Examples are thermal batteries, explosive switches or valves,
      and other items packaged to meet the criteria of this group.

  The table below illustrates the compatibility of the materials in each group. The marking
  ―X‖ at an intersection indicates that these groups may be combined in storage.
  Otherwise, mixing is either prohibited or restricted. The marking "Z" at an intersection
  indicates that when warranted by operational considerations or magazine nonavailability,
  and when safety is not sacrificed, logically mixed storage of limited quantities of some
  items of different groups may be approved

                           Storage Compatibility Mixing Chart




      (Source: NASA-STD-8719.12, Section 5)




REPORT NO. IG-13-013                                                                          33
                              APPENDIX E




     VEHICLE INSPECTION CHECKLIST




34                   REPORT NO. IG-13-013
APPENDIX E




REPORT NO. IG-13-013   35
              APPENDIX E




36   REPORT NO. IG-13-013
APPENDIX F




                       MANAGEMENT COMMENTS




REPORT NO. IG-13-013                         37
              APPENDIX F




38   REPORT NO. IG-13-013
APPENDIX F




REPORT NO. IG-13-013   39
                                                                               APPENDIX G




                                                        REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief of Staff
     Chief, Safety and Mission Assurance
     NASA Advisory Council’s Audit, Finance, and Analysis Committee
     Director, Glenn Research Center
     Director, Goddard Space Flight Center
     Director, Johnson Space Center
     Director, Stennis Space Center
     Director, Wallops Flight Facility
     Manager, Plum Brook Station
     Manager, White Sands Test Facility

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Operations
     House Committee on Science, Space, and Technology
        Subcommittee on Oversight
        Subcommittee on Space




40                                                                    REPORT NO. IG-13-013
Major Contributors to the Report:
   Raymond Tolomeo, Director, Science and Aeronautics Research Directorate
   Ronald M. Yarbrough, Project Manager
   Jiang Yun Lu, Team Lead
   Simon Chan, Management Analyst
   Noreen Khan-Mayberry, Ph.D., Technical Evaluator




REPORT NO. IG-13-013                                                         41
                                                                                      MARCH 27, 2013
                                                                        REPORT No. IG-13-013




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY13/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
